<html>
<title> - INNOVATIONS IN SECURITY: EXAMINING THE USE OF CANINES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








         INNOVATIONS IN SECURITY: EXAMINING THE USE OF CANINES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       INTERGOVERNMENTAL AFFAIRS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                                AND THE

         SUBCOMMITTEE ON TRANSPORTATION AND PROTECTIVE SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 3, 2017
                               __________

                            Serial No. 115-49

             (Committee on Oversight and Government Reform)

                               __________

                            Serial No. 115-31

                    (Committee on Homeland Security)

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-507 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Stacey E. Plaskett, Virgin Islands
Mark Walker, North Carolina          Val Butler Demings, Florida
Rod Blum, Iowa                       Raja Krishnamoorthi, Illinois
Jody B. Hice, Georgia                Jamie Raskin, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Jimmy Gomez,California
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna General Counsel
   Christina Aizcorbe, Intergovernmental Affairs Subcommittee Staff 
                                Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

               Subcommittee on Intergovernmental Affairs

                     Gary Palmer, Alabama, Chairman
Glenn Grothman, Wisconsin, Vice      Val Butler Demings, Florida, 
    Chair                                Ranking Minority Member
John J. Duncan, Jr., Tennessee       Mark DeSaulnier, California
Virginia Foxx, North Carolina        Matt Cartwright, Pennsylvania
Thomas Massie, Kentucky              Wm. Lacy Clay, Missouri
Mark Walker, North Carolina          (Vacancy)
Mark Sanford, South Carolina
                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
Scott Perry, Pennsylvania            Donald M. Payne, Jr., New Jersey
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bonnie Watson Coleman, New Jersey
Martha McSally, Arizona              Kathleen M. Rice, New York
John Ratcliffe, Texas                J. Luis Correa, California
Daniel M. Donovan, Jr., New York     Val Butler Demings, Florida
Mike Gallagher, Wisconsin            Nanette Diaz Barragan, California
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
                   Brendan P. Shields, Staff Director
               Steven S. Giaier,  Deputy General Counsel
 Krista P. Harvey, Transportation and Protective Security Subcommittee 
                             Staff Director
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

         SUBCOMMITTEE ON TRANSPORTATION AND PROTECTIVE SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Bonnie Watson Coleman, New Jersey
Clay Higgins, Louisiana              William R. Keating, Massachusetts
Brian K. Fitzpatrick, Pennsylvania   Donald M. Payne, Jr., New Jersey
Ron Estes, Kansas                    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 3, 2017..................................     1

                               WITNESSES

Ms. Sheila Goffe, Vice President, Government Relations, American 
  Kennel Club
    Oral Statement...............................................     7
    Written Statement............................................     9
Lieutenant Scott R. Smith, Orlando Police Department, Orlando, 
  Florida
    Oral Statement...............................................    20
    Written Statement............................................    23
Cynthia M. Otto, DVM, Ph.D., Executive Director, Penn Vet Working 
  Dog Center, School of Veterinary Medicine, University of 
  Pennsylvania
    Oral Statement...............................................    27
    Written Statement............................................    29

                                APPENDIX

Letter of September 29, 2017, from the Transportation Security 
  Administration submitted by Ms. Demings........................    56
Response from Ms. Goffe, American Kennel Club, to Questions for 
  the Record.....................................................    59
Response from Dr. Otto, Penn Vet Working Dog Center, to Questions 
  for the Record.................................................    61
  
 
         INNOVATIONS IN SECURITY: EXAMINING THE USE OF CANINES

                              ----------                              


                        Tuesday, October 3, 2017

                  House of Representatives,
         Subcommittee on Intergovernmental Affairs,
  Committee on Oversight and Government Reform, joint with 
the Subcommittee on Transportation and Protective Security, 
                             Committee on Homeland Security
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:20 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Gary J. Palmer 
[chairman of the Subcommittee on Intergovernmental Affairs] 
presiding.
    Present: Representatives Palmer, Katko, Grothman, Rogers, 
Higgins, Estes, Demings, Watson Coleman, DeSaulnier, and 
Keating.
    Mr. Palmer. The Subcommittee on Intergovernmental Affairs 
of the Committee on Oversight and Government Reform and the 
Subcommittee on Transportation and Protective Security of the 
Committee on Homeland Security will come to order.
    Without objection, the chair is authorized to declare 
clarify a recess at any time.
    Before I begin my opening remarks, I would like to 
recognize the United States Capitol Police Canine Technician 
Jason Conlon and his four-legged partner, Jax. Thank you for 
coming. And Jax is pretty popular in this hearing.
    I thank you both for attending today's hearing. I think I 
speak for all of my colleagues here today when I say thank you 
for all you do to protect the complex and this Nation. And 
having been one of the Republican members on the baseball field 
that morning, I know the willingness of the Capitol Police to 
pay the ultimate sacrifice for us. And that is literally what 
Officers Griner and Bailey did. They put themselves in harm's 
way for us, and we are all profoundly grateful for the service 
of our Capitol Police.
    Technician Conlon and Jax are an important reminder that 
canines are an integral part of our national security framework 
and serve in all levels of our government. From the United 
States Capitol to local municipalities, canine teams are 
working to save lives every single day. Dogs like Jax provide 
unmatched capabilities to secure our safety, including the 
detection of explosives, narcotics, concealed humans, currency, 
firearms, electronics, and chemicals, and are also used in 
search-and-rescue missions. Simply put, canines are an 
invaluable asset to our country.
    Over recent years, international demand for canines has 
increased dramatically. Experts report that this heightened 
demand has led to a shortage of suitable canines, making it 
difficult for the United States Government to obtain the 
working dogs it needs.
    TSA has reported that the Federal Government is working to 
improve and expand relationships with domestic vendors. This is 
a step in the right direction, but more work needs to be done. 
Efforts to obtain more dogs have reportedly been slow to 
materialize. In a May 18, 2017, hearing, TSA's Threat 
Assessment Division Director Melanie Harvey testified that TSA 
is working very closely with domestic vendors to build up the 
canine supply but has not identified a large enough supply to 
domestically do that.
    Industry professionals and domestic vendors have also 
reported difficulties in working with the government's canine 
procurement programs, citing challenges in getting their dogs 
accepted for work.
    We are hoping today's hearing will serve as a starting 
point toward resolving those challenges. My primary hope for 
this hearing is that it will help us evaluate how we can 
increase the use of canines in areas that are clearly 
vulnerable to attack, including public areas of our airports, 
train stations, as well as other areas with high concentrations 
of people. To that end, we have a diverse panel of 
professionals today who will present information and ideas 
about how our government uses canines. And I look forward to 
hearing what they have to say.
    We must ensure that government agencies are able to 
purchase qualified canines so that they can meet their critical 
national security missions.
    I thank Chairman Katko for his leadership and partnership 
on this issue. I thank Ranking Member Demings. I have had 
conversations, extensive conversations, with both of them that 
really led to this hearing. And I am very grateful for the work 
that they put in on this.
    Clearly, this is an area that we can all agree deserves our 
attention and support.
    I now recognize the ranking member of the Subcommittee on 
Intergovernmental Affairs, Mrs. Demings, for her opening 
statement.
    Mrs. Demings. Thank you, Mr. Chairman, and thank you to our 
witnesses for joining us here today.
    Before we begin, I do want to take just a moment to 
acknowledge the tragedy that occurred in Las Vegas. I imagine 
that we all have reflected on what happened. And as a former 
chief of police, I can tell you I have had many sleepless 
nights wondering what I could do to keep my community safe, let 
alone trying to understand what would lead somebody to commit 
such an unspeakable act.
    When President John F. Kennedy was speaking of foreign 
threats, I believe his words go to the heart of what each first 
responder holds within to do their own work. I quote him: We 
shall pay any price, bear any burden, meet any hardship to keep 
America safe.
    With that, I turn back to the subject for which we are here 
today.
    On this day, we have the opportunity to discuss the crucial 
role that canine security plays in protecting our local 
airports, transportation hubs, sports arenas, stadiums, and 
other large venues. Prior to serving as Orlando's police chief, 
I served as commander of the Special Operations Division where 
I had the honor of managing our canine operation.
    My colleagues on the other side of the aisle argue that 
more canine security is needed. I agree. Unfortunately, the 
President's budget proposal would cut State and local programs. 
Under the budget proposal, TSA's Visible Intermodal Prevention 
and Response Teams, which patrol public spaces in airports, 
train and bus stations, would be eliminated.
    Under the budget proposal, the Law Enforcement Officer 
Reimbursement Program, which provides support to local airports 
by placing local law enforcement teams alongside TSA checkpoint 
officers, would be gutted. This would cut $45 million in 
funding that reimburses local police departments for canine 
security at more than 300 local airports. I believe such cuts 
would put our State and local security forces in jeopardy.
    Our Nation's security is my top priority and should be 
Congress' number one priority. Congress must stand with State 
and local police.
    And with that, I again thank our chairman for this 
opportunity and thank our witnesses for sharing their testimony 
today. And I look forward to this very important discussion.
    Thank you.
    Mr. Palmer. I now recognize the chairman of the 
Subcommittee on Transportation and Protective Security, Mr. 
Katko, for his opening statement.
    Mr. Katko. Thank you, Mr. Chairman.
    Before I proceed, I do want to acknowledge the tragedy in 
Las Vegas.
    As a Federal organized crime prosecutor for 20 years, I 
made it my life's mission to take dangerous weapons out of the 
hands of dangerous people. But this gentleman points up a 
specifically difficult person to detect, and we got to--we have 
to learn how to do better to detect people like that that have 
gone off the grid, so to speak.
    So, with that, I will talk to a little happier subject, and 
that is dogs. My dog, Sadie, is happy I am here today. I told, 
before I came down, my black lab, that I would be testifying--I 
would be asking questions of all of you, and she said to say 
hello.
    Canines are an essential asset to our national security. 
Due to their intelligence, superior sense of smell, and 
versatility, canines provide an unparalleled service to law 
enforcement. When canines' natural abilities are supplemented 
by selective breeding, training, and cutting-edge developments 
in science, they became one of the most effective security 
tools for public safety. While the utility of one certain 
technology over another does ebb and flow based on how 
terrorists seek to do harm, the security benefits of canines 
will always been a crucial element to keeping Americans safe. 
And I want to commend my colleague to my left here, Mr. Rogers, 
who has been championing this cause for many years, at least 
since I have been in Congress the last 3 years, and I know long 
before that as well.
    The concept of a working dog is not unfamiliar to most 
Americans. They are a viable presence in airports, train 
stations, and other public areas. From my experience as 
chairman of the Homeland Security Committee's Subcommittee on 
Transportation and Protective Security, I have seen firsthand 
the data proving the security effectiveness of canines in 
mitigating the rapidly evolving threat landscape facing 
America's transportation systems. Oftentimes, canines present 
the most effective and efficient means of detecting new 
threats--again, I stress effective and efficient--as they can 
be retrained and deployed as new threat streams and terrorist 
tactics emerge. Canines are utilized in a variety of different 
settings and roles for the detection of people, narcotics, and 
explosives, and weapons of mass destruction, amongst many other 
items.
    As we strive to be proactive in mitigating threats to the 
traveling public in transit hubs, airports, and other venues, 
canines are an essential component of our ability to enhance 
security. Because of their versatility and reliability, canines 
are increasingly sought after by Federal, State, local, and 
Tribal agencies, as well as private stakeholders and foreign 
governments. This spike in demand for canines both domestically 
and internationally far outstrips our current ability to 
produce an adequate supply of dogs. The United States is 
competing with many other nations to procure canines that meet 
rigorous standards. And a shortage of quality dogs presents an 
impending security risk. In an era of heightened terrorist 
activities, it is critical that the domestic working canine 
industry has a robust development and training pipeline that 
feeds into a seamless procurement process.
    The purpose of today's hearing is to learn more about the 
challenges that the canine industry faces. We also want to 
ascertain how we can better develop a strategy and more 
reliable infrastructure for domestic breeders and training 
facilities. Lastly, we want to learn how the United States 
Government can better communicate its needs with its private 
sector canine partners to help facilitate future growth of this 
essential security asset. A strong domestic breeding industry 
not only makes all of us safer but creates new jobs and 
opportunities in our communities. I think it would be great if 
we got to a point where we stopped importing dogs from Belgium 
and wherever else and had the programs here and maybe got it to 
such point where we are exporting them around the world because 
the quality is that good.
    However, we have to make our government--we have to make 
sure our government is doing everything it can to present a 
strategic and comprehensive vision for its canine needs and 
that this vision is effectively communicated to the industry in 
order to foster necessary growth.
    We must also ensure that, with the rapid increase in demand 
for canines, we are ensuring the quality of our security 
standards and procuring only the most highly trained canines. 
We must also ensure that we are properly incentivizing breeders 
and trainers to meet the demand for canines today and far into 
the future.
    Ms. Goffe, Lieutenant Smith, and Dr. Otto, I encourage all 
of you today to be candid and frank in your testimony. We 
convene this hearing in order to hear directly from each of you 
about how Congress can better support this critical layer of 
our national security. We all share the same goals, and we all 
want to better understand what obstacles currently exist that 
may prevent the growth of our domestic canine industry. Canines 
are an invaluable safety and security asset. And the need for 
more canines will only continue to grow.
    I would like to thank my colleagues Chairman Palmer, 
Ranking Member Demings, and Ranking Member Watson Coleman for 
joining me in calling for this hearing today.
    Security is not a partisan issue. That is one of the things 
we truly enjoy about Homeland Security is that it is not a 
partisan issue. And we must work together in a bipartisan 
fashion to advance important issues that affect the safety and 
security of all Americans.
    And, with that, I yield back.
    Mr. Palmer. The chair now recognizes the ranking member of 
the Subcommittee on Transportation and Protective Security, 
Mrs. Watson Coleman, for her opening statement.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Thank you to the members of both subcommittees for 
convening this hearing and to the witnesses for being here 
today.
    I would to begin by acknowledging Sunday's horrific mass 
shooting in Las Vegas as well. Our thoughts and our prayers are 
with the victims, their families, and their loved ones. I also 
want to thank the law enforcement officers and first responders 
who bravely rushed to the scene and attended to the victims.
    While we are still learning the details of this tragic 
event, it is a sobering reminder of the harm a single actor can 
cause when he has violent intent and access to deadly weapons.
    Sunday's attack comes a little more than a year after the 
Pulse nightclub shooting in Orlando. Until Sunday, the Pulse 
attack was the deadliest mass shooting in modern American 
history.
    Lieutenant Smith, I understand you were part of the law 
enforcement response to that shooting, and I thank you for your 
service.
    While it may not be the stated topic of this hearing, 
considering recent events and the renewed urgency to take up 
comprehensive gun safety reform, Lieutenant Smith, I hope that 
we can hear from you today on some of the lessons you learned 
from that tragic experience and some of the suggestions you 
have for my colleagues here in Congress on what we can do to 
address this epidemic of gun violence.
    While we may never know what drove the killer to 
indiscriminately fire upon concertgoers, what is undeniable is 
that it terrorized innocent law-abiding citizens. Congress has 
an obligation to pass commonsense gun control reforms to reduce 
the lethality of future attacks.
    As a ranking member of the Subcommittee on Transportation 
and Protective Service, I am all too familiar with the diverse 
security threats our Nation faces. While this shooting shows 
that any large gathering can be targeted for attack, terrorists 
continue to place particular importance an attacking 
transportation systems. Soft targets, such as subways, mass 
transit stations, and public airport areas, have been targeted 
in the United States and abroad. Securing these critical 
transportation systems requires a layered risk-based approach. 
While no one technology or solution can provide unbeatable 
scrutiny--security, canines have proven to be one of the most 
effective tools for securing large venues open to the public.
    Under the Obama administration, the TSA more than doubled 
the size of its canine program, growing from the number of 
canine teams from 518 in 2008 to 1,047 in 2017.
    At my home airport of Newark Liberty International Airport, 
TSA now deploys 13 canines to support their operations. TSA 
provides an additional 20 canines to the Port Authority of New 
York and New Jersey for deployment at all of its transportation 
systems.
    Although I have been pleased by the continued investment in 
canines, I must note that they have been deployed 
disproportionally to securing aviation compared to other 
transportation sectors. TSA devotes more attention and 
resources to aviation than surface transportation in general. 
Many of the TSA's technology that are in use at airport 
security checkpoints cannot be effectively integrated into 
bustling train stations and other active surface transportation 
venues.
    However, canines are mobile and able to detect explosives 
both on persons and in baggage. They work well in crowds, and 
they can be trained to detect evolving threats. There is also 
some evidence that they serve as a deterrent to those who may 
be planning an attack. TSA must devote more of its resources to 
securing surface transportation systems, particularly in light 
of AQAP's publication of its latest issue of Inspire Magazine 
last August which encouraged and provided instructions for 
attacks against U.S. railways. Ensuring that there are 
dedicated canine resources available to help secure high-risk 
surface transportation would be a perfect place to start.
    To that end, I will be introducing a bill to revamp and 
invest in surface transportation security programs in the near 
future, and I hope my colleagues would give it their support.
    Again, thank you to the witnesses for appearing here today, 
and I look forward to learning more about the capabilities and 
the contributions of canines to our national security.
    And, with that, Mr. Chairman, I yield back. Thank you.
    Mr. Palmer. I thank the gentlewoman.
    I am pleased to introduce our witnesses. Ms. Sheila Goffe, 
vice president of government relations for the American Kennel 
Club; Lieutenant Scott Smith of the Orlando, Florida, Police 
Department; and Dr. Cynthia Otto, executive director of the 
Penn Vet Working Dog Center at the University of Pennsylvania 
School of Veterinary Medicine.
    Welcome to you all.
    Pursuant to Oversight Committee rules, all witnesses will 
be sworn in before they testify.
    Please rise and raise your right hand.
    Do you solemnly swear to--or affirm that the testimony you 
are about to give is the truth, the whole truth, and nothing 
but the truth, so help you God?
    Thank you.
    The record will reflect all witnesses answered in the 
affirmative.
    You may be seated.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made part of the record. As a reminder, turn on your 
microphones when you are testifying. The clock in front of you 
shows your remaining time for giving your testimony. The light 
will turn yellow when you have 30 seconds left and red when 
your time is up. And then the gavel will remind you that the 
light turned red.
    I would like to recognize the witnesses for the testimony. 
Ms. Goffe, if you would.

                       WITNESS STATEMENTS

                   STATEMENT OF SHEILA GOFFE

    Ms. Goffe. Thank you, Chairman Palmer, Chairman Katko, 
Ranking Members Demings and Watson Coleman, and other 
distinguished guests. It's a pleasure to be here in Washington 
today. And on behalf of the American Kennel Club, I thank you 
for the opportunity to share with you some of our concerns and 
experiences with respect to the need, demand for, and use of 
military working dogs, particularly explosive detection dogs, 
and ways that improving the domestic sourcing of detection dogs 
can help protect our national security.
    The American Kennel Club was founded in 1884 by a group of 
sportsmen and dog enthusiasts who wished to record and preserve 
the bloodlines of their working dogs and advance the 
capabilities for future generations. Today, more than 130 years 
later, the AKC remains dedicated to protecting and advancing 
the unique capabilities of purpose-bred dogs as part of our 
mission of promoting purebred dogs and thoughtful, purposeful 
breeding for type and function.
    The AKC is a not-for-profit organization and national club 
of more than 5,000 member and affiliated clubs around the 
country. In 2016, AKC sanctioned 22,000 dog-related events 
throughout the country in disciplines ranging from confirmation 
dogs shows to field trials, agility, and obedience.
    Earlier this year, we established a competitive sport based 
on scent detection. AKC is also the largest all-breed registry 
in the world. We are dedicated to advocating for the purebred 
dog as a working and family companion, advocating for canine 
health and well-being, advancing the study and breeding of 
purebred dogs, and promoting responsible dog ownership.
    We have a long history of helping the government with 
military working dog programs. In World War II, some 17,000 AKC 
registered dogs served in the Dogs for Defense Program. In the 
last decade, AKC board member Carmen Battaglia has been an 
advisor to the TSA breeding program at Lackland Air Force Base 
providing expertise on breeding strategies and puppy-raising 
protocols, such as early neurological stimulation to improve 
long-term outcomes for successful military working dogs.
    Over the course of this interaction, AKC was asked how we 
might be able to assist the development and procurement of 
quality domestically bred dogs suitable for training as 
military working dogs. The AKC does not sell dogs nor do we 
seek to become a government contractor. The AKC brings a 
breadth of knowledge, a large network of breeders, and the 
expertise and ability to facilitate among a range of 
stakeholders. We see our role as a facilitator who can provide 
expertise and information to breeders to bring them together 
with cutting-edge research in agencies that need very specific 
types of dogs that can succeed as military working dogs.
    As mentioned earlier, military working dogs play a critical 
role in our national security. According to sources within and 
outside the Federal Government, 80 to 90 percent of the dogs 
purchased by the Homeland Security and Department of Defense 
come from foreign sources. As Americans, we should be concerned 
that an extraordinarily high percentage of the dogs that serve 
on the front lines of protecting the public, our public 
institutions, and our national security are obtained from 
foreign sources.
    About a year ago, AKC formed a team to gather information 
about American use and procurement of explosive detection dogs, 
the challenges faced in having enough fully trained deployable 
dogs to meet demand, and how changes in breeding and 
procurement might improve outcomes. We have met with officials 
at the Department of Defense, the TSA, private vendors, 
government and private contractors, academia, and law 
enforcement. We found a range of concerns regarding an 
overreliance on foreign bred and procured dogs, a lack of 
transparency and consistency in the selection process for 
untrained, or green, dogs. We found high failure rates among 
both foreign and domestic dogs and procurement processes that 
intimidated potential suppliers and could favor foreign dogs 
over domestically bred dogs. We also heard concerns that 
outcomes from scientific research on improving performance and 
efficiency within our training programs were not being 
implemented consistently.
    In March, AKC hosted the U.S. Dog Detection Conference in 
Raleigh, North Carolina. The conference assembled key 
stakeholders from government, academia, the private sector to 
discuss ways that AKC could provide dogs to protect the safety 
and security of the United States and advance the concept of a 
working dog center of excellence.
    We plan to make this conference an annual event and would 
like to extend an invitation to the conference and to members 
of the House Homeland Security Oversight and Government Reform 
Committees and the appropriate staff to attend our next 
conference.
    At this conference, and I note Dr. Cindy Otto will also 
speak about this, we looked at a number of challenges and a 
number of opportunities. We looked at ways that we could come 
together to provide the expertise, the knowledge, the training, 
the cutting-edge science all together as part of a center for 
canine excellence for working dogs. We plan to continue to work 
towards that future.
    And I would be very happy to answer any questions you might 
have about the specifics of the plans to bring together this 
expertise and the ways that we would like to be able to assist 
in this process.
    Thank you very much.
    [Prepared statement of Ms. Goffe follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        
    Mr. Palmer. The chair recognizes Lieutenant Smith for his 
testimony.

             STATEMENT OF LIEUTENANT SCOTT R. SMITH

    Mr. Smith. Thank you, Chairman Palmer.
    And I would also like to thank the members of the 
subcommittees for inviting me here today, and specifically 
Ranking Member Demings. The connection is not lost on me, why I 
am sitting here in front of you.
    My name is Scott Smith. I'm a lieutenant with the Orlando 
Police Department. I have been in law enforcement for 25 years, 
all of which have been done in Orlando, Florida.
    Throughout the years, I have had an opportunity to hold a 
variety of jobs within our agency. But by far, the most 
rewarding and the most challenging has been supervising the 
canine unit. I would like to take the next couple of minutes to 
explain to you our uses of canine in Orlando and also explain a 
couple of unique security concerns in the central Florida 
region and how we address those with the canines.
    The Orlando Police Department utilizes 14 full-service 
canines in their day-to-day operations. These full-service 
canines are primarily used to support patrol personnel in 
search and apprehension of criminals. They are trained and 
tested in disciplines such as area searches, building searches, 
tracking, and apprehension. In addition to the above functions, 
each of these canines also possess a secondary specialty and 
are trained in either narcotics detection or explosive 
detection.
    Over the years, as the paradigm has shifted from a war on 
drugs to a war on terror, so too is our focus on secondary 
specialties. In the early years of our program, almost all of 
our canines were trained on narcotics detection. Now, in the 
aftermath of such events as the 1993 World Trade Center 
bombing, the Manchester Arena bombing, Brussels Airport, and 
the coordinated terrorist attacks in Paris, France, that used 
numerous suicide vests, the Orlando Police Department Canine 
Unit concentrates heavily on the explosive detection specialty.
    In addition to the 14 full-service canines that I mentioned 
above, the Orlando Police Department also utilizes four single-
purpose explosive detection dogs. These four canines are only 
trained on explosive odor and were specifically purchased to 
bolster the security measures at Orlando International Airport. 
They maintain a visible presence throughout the airport and 
actively sweep passengers in common landside areas, such as 
ticketing, baggage claim, and the food and retail areas.
    As has been demonstrated in past terror events, whether 
it's ISIS or a lone extremist, mass transit facilities such as 
an international airport are a favorite target. It can shut 
down an entire transit system as well as ensure a large amount 
of casualties.
    Due to the unique tourism industry of central Florida, 
Orlando International Airport has continued to grow and has set 
daily passenger records throughout 2017. In addition, the 
Orlando International Airport is currently in phase 1 of a 
brandnew international terminal scheduled to open in 2020. With 
the expansion of the airport and the increased passenger 
numbers it will bring, the demand for security screenings will 
only increase. Local and Federal agencies will be forced to 
grow in order to support these security demands. By utilizing 
canine assets, agencies can offset manpower demands and screen 
a wide number of people faster.
    In addition to our international airport, central Florida 
is home to several of the top tourist destinations in the 
world. For the past 3 years, the central Florida region has 
surpassed its tourist numbers from 62 million in 2014 to 68 
million in 2016. On a daily basis, local law enforcement canine 
teams are patrolling theme parks such as Walt Disney World, 
Universal Studios, and Sea World. And at times, a particular 
theme park can register as many as a quarter of a million 
guests in their parks at one time.
    Due to these numbers, some of these theme parks even 
supplement the law enforcement explosive detection teams with 
their own supply of explosive detection canines. And although 
these personnel are not sworn law enforcement, it enables the 
theme parks to show a greater presence and screen a greater 
number of visitors at their turnstiles.
    On top of the concentration of theme parks in central 
Florida, Orlando is also a host to a number of collegiate and 
professional athletic events. Our explosive detection dogs 
sweep 41 home games for the Orlando Magic, 19 home games for 
Orlando City Soccer, 12 for Orlando Pride, plus 3 NCAA Bowl 
games. Orlando is also currently the host city for the NFL Pro 
Bowl.
    Attendance at these games can range from 5,000 to 70,000. 
Numbers like those seen at theme parks and sporting events are 
often too tempting to ignore for an extremist or an individual. 
The visible presence and active screening of canine teams at 
choke points at these venues is an invaluable deterrence to the 
safety of the visitors.
    Lastly, as everyone knows, on June 12, 2016, Orlando fell 
victim to the largest terrorist attack on U.S. soil since 9/11. 
A self-radicalized extremist murdered 49 victims at a small 
nightclub just outside downtown Orlando.
    The terrorists boldly made claims of possessing suicide 
vests as well as having a car bomb parked outside. Several 
canine teams from different agencies across central Florida 
responded to that event. The suspect's car was swept, as well 
as key areas around night--around the nightclub, such as 
command posts, staging areas, and--sorry--excuse me--and 
staging areas. Ultimately, his claims of explosives proved to 
be false. But the use of responding canine teams helped 
alleviate the concerns of first responders about secondary 
devices and allowed them to concentrate on the terrorist 
himself.
    In conclusion, I would like to emphasize the ever-changing 
tactics used by extremist groups who frequently seek out soft 
targets with large number of victims. The threat to these 
targets can be greatly mitigated by the use of explosive 
detection canines. The simple site of a canine vehicle or a 
canine team patrolling the choke point can deter even the most 
dedicated terrorist if they believe they will be detected 
before they can cause the greatest amount of damage. Those who 
seek to harm us need to know we will use the best assets 
available to prevent their attacks and preserve life.
    Again, I would like to thank the committee for the 
opportunity to speak in front of you, and I look forward to 
answering any questions.
    [Prepared statement of Mr. Smith follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    Mr. Palmer. I thank for the gentleman for his testimony.
    The chair recognizes Dr. Otto for her testimony.

            STATEMENT OF CYNTHIA M. OTTO, DVM, PH.D.

    Dr. Otto. Chairman Palmer, Ranking Member Demings, Chairman 
Katko, Ranking Member Watson Coleman, and members of the 
subcommittees, thank you for the opportunity to testify today.
    The Penn Vet Working Dog Center is the Nation's premiere 
research and educational facility dedicated to harnessing the 
unique strengths of our canine partners and producing an elite 
group of scent detection dogs for public health and safety.
    The Working Dog Center is a living laboratory where we 
study and test strategies to optimize canine health and 
performance from 8 weeks of age through career entry. Early 
training provides a positive learning environment and mitigates 
problems. This, combined with placing dogs in their chosen 
careers, ranging from explosive detection to cancer detection, 
has resulted in 93 percent of our dogs graduating into 
detection careers.
    Dogs are a force multiplier. Dogs are diverse in their 
skills. And applications in which dogs support national 
security directly and indirectly are constantly expanding. The 
most obvious direct applications are the explosive detection 
canine and the law enforcement canine. Many of the other jobs, 
such as narcotics detection, agriculture, search and rescue, 
human remains detection, and even conservation dogs indirectly 
support national security. The demand for working dogs in other 
fields is also great.
    Dogs that could serve in national security careers may 
instead be sold to organizations or individuals that utilize 
dogs for other detection roles, hunting, or sport. Overall, 
there is a great and increasing demand for dogs with the 
health, behaviors, and skills necessary for a wide array of 
working careers, and currently, there is no comprehensive plan 
to increase the supply of these invaluable canines or conduct 
the research to enhance their success.
    With a high demand for dogs, one of the challenges faced is 
the affordable procurement of healthy dogs capable of 
performing the tasks required. In seeking a solution, we must 
consider the cost of the dogs and the source of the dogs.
    There are several components that contribute to the cost of 
a dog. The first is in identifying dogs for potential purchase. 
The purchase price of both successful dogs and those that 
eventually fail must also be tracked. Once a dog is acquired, 
the expensive training, medical care, housing, transportation, 
and working lifespan of the dog should be included. Finally, 
one of the biggest factors in the cost of the working dog is 
the cost of the human partner.
    In summary, the initial price of the dog is a small 
fraction of the total cost of employing a detection canine. 
Wise choices on the health and training of the dogs and 
selection of the handler can help to reduce the lifetime costs 
of dogs.
    The main options for sourcing dogs are imports, domestic 
breeders, shelter dogs, or a dedicated breeding program. 
Traditionally, the majority of dogs for the U.S. military and 
domestic law enforcement agencies have been imported. 
Challenges with imports stem from a lack of control over 
genetics, health, environment, and availability. The current 
challenge with relying on domestic breeders is production of 
top hunting dogs is typically their primary goal, thus cost and 
selection criteria often don't align with government needs.
    A shelter model is emotionally appealing but limited by 
cost and availability of appropriate dogs, making it unsuitable 
as a primary source of dogs.
    A dedicated breeding program would allow for control of 
genetics, environment, and training, and potentially meet the 
demands for dogs in a variety of careers. Development of a 
breeding cooperative would allow breeders and organizations to 
sell dogs that meet the health, behavioral, and genetic 
requirements. For this program to be effective, additional and 
ongoing research will be necessary.
    In conclusion, to improve the availability and success of 
working dogs, supporting our national security in an efficient 
and cost-effective manner, sound scientific principles must be 
applied to all aspects of dog selection, training, and 
deployment. To achieve the full potential, a federally hosted 
collaboration between academic institutions, government 
agencies, organizations, breeders, and industry to create a 
national detection dog center of excellence is critical. The 
center of excellence would research, validate, and disseminate 
best practices to advance the scientific approach to dog 
selection, care, and training.
    Furthermore, to address the impending crisis of detection 
dog availability, a new cooperative model of detection dog 
breeding, early training, and distribution must be critically 
evaluated. Included in the documents is a white paper 
describing a cooperative breeding program that we presented at 
the AKC summit last March.
    We thank you for the opportunity to present and welcome 
your questions and comments.
    [Prepared statement of Dr. Otto follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Palmer. I thank the witnesses for their testimony.
    The chair now recognizes the gentleman from New York, Mr. 
Katko, for 5 minutes.
    Mr. Katko. Thank you, Mr. Chairman.
    Ms. Goffe, when I was--when you were speaking, you reminded 
me of one of my early jobs as a young teenager working at AKC 
events in the central New York area. I was excited to go work 
with dogs until I got there and found out what the job was. 
Wearing a white coat and a large shovel and a big bucket, you 
can guess what I had to do all day every day. But it was--it's 
an early exposure to AKC and the professionalism of the 
organization. And I am impressed with that.
    Dr. Otto, your testimony was excellent, and it was very 
helpful, because we do need a blueprint. And I think we all 
agree that increasing the use of canines in law enforcement and 
antiterror efforts is preferable over fancy new machines that 
rarely work as advertised. And they are more pliable, more able 
to adapt, and cost-effective as well. So I don't think there is 
an argument about that.
    The question is, why aren't we getting there? And you both 
touched on it. But I think one of the big things that I'm 
concerned with is some of the bottlenecks and some of the 
inconsistencies and some of the sheer incompetence in the 
procurement process. We see that again and again in Homeland 
Security and other areas. But a procurement process with 
respect to the dogs provides a disincentive for breeders to get 
into this field. So we got to fix that. And I'd like to hear 
from you about that. And then if there's anything you'd like to 
drill down on with respect to your testimony, Dr. Otto, I'd 
like to hear that.
    So, Ms. Goffe, if you want to expound on the procurement 
process for me, first, that'd be helpful.
    Ms. Goffe. Absolutely. Thank you.
    To start with, for the procurement process, we have been 
looking at the opportunity to acquaint and bring many of the 
breeders in our network into this process. One of the issues 
that we've had is severalfold. One, we have many, many small 
breeders throughout the country who provide the types of dogs 
that would potentially be ideal for this process. But they 
don't breed a lot of dogs. They do breed high-quality dogs. So 
they don't necessarily have the resources. They can be 
intimidated in some cases by the government contracting 
process.
    As you know, the government contracting process has 
historically looked for large quantities of dogs. And one of 
the ways that we think we can help address this problem is to 
make some changes in the processing--or the contract process--
program so that small breeders potentially working together can 
actually provide dogs that are needed--the type of dogs that 
are needed.
    Another comment that we heard was from some vendors around 
the country who had mentioned that, in order to scale up, to 
develop the types of dogs with the health protocols, you know, 
the scientific background, looking at the genetics of the dog, 
looking at the pedigrees of the dog, making sure that these 
dogs were healthy physically and mentally able to stand up to 
the rigors of day on, day off in various types of conditions 
out there sniffing for explosives, that they needed a larger 
facility, a strong breeding program. Unfortunately, what they 
found was that small business set-asides got in the way of 
their ability to do that. When they expanded to a certain level 
to have the expertise that they needed to scale up, if you 
will, they were no longer a small business.
    That has also brought forward the question of when you 
consider that detection canines are a critical national 
security resource, should they potentially be identified under 
a different NAICS code? Currently, they are identified as live 
animals, which would be the same as any other animal in 
acquisition processes. But these animals are different. They 
are a key part of national security so that the people who are 
providing them very well may need to have a different level of 
category for what--costs to the small business.
    Mr. Katko. Ms. Goffe, just to follow up, and then, Dr. 
Otto, I think I'll have to ask for your response in writing, if 
you would, because I'm going to run out of time if it is not 
covered later in the hearing.
    Just a question for you, Ms. Goffe, to follow up what you 
were saying. Do you find that different agencies have different 
standards, and does that contribute to the problem?
    Ms. Goffe. We have--yeah. We have interviewed a number of 
people, and we have found that there have been--has been a lot 
of inconsistency, actually within and across agencies. There 
has been some frustration among people who would like to 
provide dogs that they have bred, provided the dogs, gone down, 
in many cases, to Lackland or somewhere where the dogs would be 
evaluated. And they have not had a consistent testing 
experience. The concerns have involved complaints that the 
protocols used were not realistic to the needs of what that dog 
would actually be expected to do on a day-to-day basis. We have 
also heard that they were rejected without a full explanation. 
And part of the concern--we understand--you know, not all dogs 
are going to make it. These are very, very specialized dogs. 
But we think to advance the knowledge and the learning and our 
ability to really have good detection dogs, we're going to want 
to have feedback from the Federal agencies so we can work 
together, make sure that our breeders know exactly what it is 
that is required in what is considered to be an untrained dog. 
So we're not talking about high-level security, high-level 
training. We're talking about basic training for these dogs, 
just socialization, environmental stability, the mental and 
physical capabilities to do what they need to do on a daily 
basis. And we are hearing that the evaluations have been 
inconsistent.
    It is true that some of this is subjective. You've heard 
the old comment that, if you have three trainers in a room, two 
of them will agree that the other one is doing something wrong. 
But from the perspective of science and national security, we 
think that part of what a center for excellence can do is to 
establish standards that are a baseline to every dog, every 
green dog should be able to accomplish to make it to that first 
level of being accepted into a training program, and then you 
can carry on with additional training.
    Mr. Katko. Thank you, Ms. Goffe.
    I have many other questions, but my time has expired. So I 
yield back.
    And thank you, Mr. Chairman.
    Mr. Palmer. I thank the gentleman for his questions.
    The chair now recognizes the ranking member, the gentlelady 
from Florida, Mrs. Demings, for 5 minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    And, again, to our witnesses, thank you all for being here.
    Lieutenant Smith, it's good to see you again, and I will 
start with you.
    Could you please again for us just talk about the critical 
role that canines play in the safety of the traveling public? 
And then if you would also talk a bit about where the Orlando 
Police Department procures its canines and if you've seen any 
difference between U.S.--dogs from the U.S. versus dogs from 
other places, like Europe.
    Mr. Smith. Yes, ma'am.
    As far as our use in Orlando, like I had just--in my 
opening statement, the Orlando International Airport, we just 
procured those four single-purpose dogs. So that's a new 
program from us, and that--I know there's a trademark here 
somewhere, but it's--Vapor Wake terminology is what those dogs 
were. So that's new training, new technique.
    The other 14 dogs that I talked about, they are used 
throughout the city in different venues to include those arenas 
or sporting complexes. And in downtown Orlando, you obviously 
know the Dr. Phillips Center, Performing Arts Center, a lot of 
the vigils that we have or the large, you know, runs or Lake 
Eola-type thing, Fourth of July celebrations, anywhere that's 
going to draw thousands of people, we will use those dogs in a 
pre-sweep. And I think that's important. People walk by--it's 
same as Jax over here. Everybody walks in, and they recognize 
the canine. They see it right away. I think they see, you know, 
the uniform if it says ``canine'' on there. And I addressed it 
earlier about a vehicle--when you park a vehicle in front of 
some place, like an airport terminal or something like that, 
and it has ``canine'' in red, that's a deterrent. You know, 
whether or not that canine is right there, as somebody drives 
up and they see that, they're going to think twice, whether 
it's is a pre-surveillance thing, an intelligence-gathering 
thing. You know, unfortunately, it will only displace it. It 
may not prevent it entirely. But when they see it, they may 
pick something else besides the large-scale mass-casualty 
place.
    The other part of your question was?
    Mrs. Demings. Procurement.
    Mr. Smith. Procurement.
    For our full-service dogs, we go through third-party 
vendors. They're kind of--once you find a good one, you want to 
keep your hands on them. We have gone through a few vendors 
over the years that I have been there. And I'm sure yourself--
you'll get a couple of good dogs. And then, after that, the 
quality kind of deteriorates. You know, the quantity is 
definitely there. The dogs are there. But it is the quality.
    When the use of military working dogs and police working 
dogs really took off, we saw a decline in the age of the dogs 
that we were getting, as a local agency. I think a lot of them 
were being used in the military, and those vendors chose to 
sell to them first. And then some of the dogs that we got 
were--instead of being 2, 2-1/2, they started to be a year and 
a half old or maybe just a little older. And you start to get 
too young, and then you run the risk of actually breaking the 
dog. You know, the socialization and the hard work and stuff, 
they won't respond to the discipline that you put on them. So--
--
    Mrs. Demings. Okay. Thank you.
    Dr. Otto, first of all, I want to thank you so much for the 
work that you're doing through your nonprofit. Would you agree 
that many Federal agencies use highly trained dogs for a 
variety of missions?
    Dr. Otto. Yes, absolutely. I think that's one of the things 
that we need to consider is that we're not just selecting for 
one type of dog. So there may be different criteria for 
different agencies because they have different missions. And 
one of the really important things about a national center of 
excellence is that we can consider the phenotype type, which is 
that external expression of the behavior, and associate that 
with the genotype, which is the genetic underpinnings, and we 
can start to actually select dogs for the jobs that we need 
them to be in. And if we have a litter of puppies, we know 
they're not all going to be identical. And so there may be some 
dogs that do wonderful passenger screening and others that do 
person-borne explosives and some that might actually just need 
to go to another agency that is looking for support dogs for 
veterans with PTSD.
    Mrs. Demings. Do you know if agencies have developed test 
standards for their canine units that vary according to the 
mission?
    Dr. Otto. I don't know specifically. I know that one of our 
big missions is to actually collect the data because people 
don't quantitatively evaluate those characteristics. A lot of 
people will take a test that another organization has used, 
whether it's relevant or not. And one of our big research 
questions is, what's the appropriate test, what's the screening 
that best predicts success in the field that those dogs will 
end up working in?
    Mrs. Demings. Thank you so much.
    And, Mr. Chairman, I yield back.
    Mr. Palmer. I thank the gentlelady.
    The chair now recognizes the gentleman from Kansas, Mr. 
Estes, for 5 minutes.
    Mr. Estes. Thank you, Mr. Chair.
    My first question is for Dr. Otto. You know one of the 
things we talked about is the acceptance rate of U.S.-bred dogs 
is much lower than some of the dogs procured from overseas, 
particularly Europe.
    What are some of the best practices that we could put in 
place to help improve that acceptance rate?
    Dr. Otto. First, I think we have to define the acceptance 
rate. I think a lot of people are screening dogs looking for 
specific things. And we're not breeding those dogs or preparing 
those dogs for jobs in the government. So I think that's the 
first place that we need to go. And I think that if we're 
starting to look at what the jobs are and, again, looking at 
those expectations, that phenotype, we can really impact the 
dogs early on.
    In our program, we start training our dogs at 8 weeks of 
age. And as a result of that, we're able to mitigate a lot of 
problems that are things that are keeping dogs from being 
successful, like environmental sensitivity. So, from the time 
our dogs are 8 weeks, they're going on linoleum floors; they're 
climbing metal stairs. They're used to these environments. 
They're able to actually enter the workforce at 12 to 18 
months.
    We're also using positive reinforcement training. So that 
is a really important factor in allowing these dogs, when they 
are young, to be successful in these pretty intense careers. As 
long as they're loving what they're doing, it really is 
something that they are thriving at.
    Mr. Estes. Thank you.
    Ms. Goffe, you--we talked about the government procurement 
process, and that was one of the questions you were asked. You 
know, are there improvements that we can use in identifying our 
standards that we need to acquire to and from? And what are 
some things that we could do in that regards?
    Ms. Goffe. Yes, I think there are some improvements. And I 
would also just like to say, I think one of the areas that we 
can improve is that, when we're currently obtaining dogs from 
overseas, we're getting them at 12 months of age. And to Dr. 
Otto's point and to several other points, when we get them at 
12 months of age, they then go into a training program almost 
immediately. One of the things that we find to be interesting 
is that, you know, most breeders already let their dogs go at 
about 12 weeks. So there's this long period of time that, for 
the dogs that we're, you know, obtaining overseas, we don't 
know what's happening in that period of time. It's one of the 
challenges that we face.
    But, potentially, by getting more and working more to breed 
more dogs in the United States, we're going to have a better 
oversight of what's happening in that period of time. And that 
means better training, better socialization, to your other 
question, also potentially increasing the success rate, because 
it's not what you're picking up at 12 months like what you're 
picking up overseas. We're getting a dog that has--what we see 
is what we get at 12 months but, rather, one that we can 
actually prepare for a much longer period of time to bringing--
you know, to bringing that into the system.
    Mr. Estes. Okay. Thank you.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Palmer. I thank the gentleman.
    The chair now recognizes the--our ranking member, Mrs. 
Watson Coleman, from New Jersey for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    A breeder typically--I want to talk about a breeder in this 
country. A breeder typically holds on to the dog and then will 
allow the dog be purchased at what age? Is it 8 weeks, 12 
weeks?
    Ms. Goffe. Yes. Typically--and, of course, it varies. But 
most breeders who are going to let a dog go let it go at about 
8 to 12 weeks of age, getting it to its new home to start 
socialization and training at that point.
    Mrs. Watson Coleman. Thank you.
    So, Lieutenant Smith, if the breeder is letting the dog 
become available between 8 and 12 weeks, do you purchase the 
dog at that age and then engage in a year's worth of training? 
What happens in between--what happens before--between the time 
that the breeder has a dog that's eligible to be purchased and 
you, the end user, actually gets it?
    Mr. Smith. We may have to answer this jointly. But, from 
our end, the breeders--and, unfortunately, we do typically get 
ours from Europe through a third-party vendor. So the breeder 
is obviously in Europe. They're raising it from a puppy up 
until probably about a year is when the vendor from, you know, 
the State of Florida is typically taking a trip to Europe. The 
dog is going to be about a year old. Vendors have certain tests 
that they will conduct with the breeders over there, whether or 
not they want to purchase it. You know, unfortunately, some of 
the third-party vendors are like used car salesmen. You know, 
they want to bring in as many dogs as they can and get rid of 
them as fast as they can. And some of their testing programs, 
you know, they'll bring in dogs that don't meet standards for 
local law enforcement.
    So then we'll go through the vender, and we run our own 
series of tests to see if it's a dog that we would want to 
employ
    Mrs. Watson Coleman. And then do your dogs get 
recertified--they get certified in a particular detection or 
whatever, and then do they get recertified? If so, how often?
    Mr. Smith. Correct. So full purchase dogs, those 14 that I 
talked about--and, you know, they have a larger job. So that is 
standardized by the Florida Department of Law Enforcement. And 
that's 480 hours of training. And that covers all those areas 
that I talked about, building searches, area searches, 
tracking, apprehension. Any odor work after that, narcotics or 
explosives, is another 160.
    So, you know, manpowerwise, Dr. Otto touched on the cost 
for the handler themselves being in training that long. You 
know, it's probably about 4 to 5 months before--once we get the 
dog and that handler is on the street with that team.
    Mrs. Watson Coleman. So, Ms. Goffe, tell me this. What 
needs to be done so that a breeder would hold on--a breeder 
interested in having the dog purchased for security purposes, 
what would need to be done to make that happen?
    Ms. Goffe. Right. Great question. There are a couple of 
things that we can do. One of the things we suggest is looking 
at the incentives currently. What we're dealing with with a lot 
of the really wonderful hunting field trial dogs that we would 
normally be looking at, one of the problems is that a breeder 
can sell them at 12 weeks for a comparable price that the 
government will pay at 12 months. A breeder will say: Well, you 
know, I can hold this dog for another year, feed it, you know, 
train it, medical care, et cetera, and maybe the government 
will want it. Or I can sell it to this great home down the 
street that's going to pay the same price.
    So, unfortunately, we have a rather--a disincentive for 
breeders to be selling to the government. Having said that, AKC 
has reached out, and we do know people are interested in doing 
this.
    One of the things that we think is a critical need--and 
this goes to your point earlier, what do we do in that year? 
What happens with the foreign dogs? We don't know what happens 
with the foreign dogs in that period from 12 weeks to 1 year. 
But with the U.S. dogs, there are several programs out there 
that have developed relationships with prisons. So you have 
some prison socialization and training. We have found those to 
be very, very successful. Dr. Otto's program has been----
    Mrs. Watson Coleman. I was going to ask Dr. Otto about a 
response to this question as well.
    Ms. Goffe. Uh-huh.
    Mrs. Watson Coleman. If you don't mind.
    Dr. Otto. I was dying to tell you.
    Mrs. Watson Coleman. I can tell.
    Dr. Otto. Please ask me. Please ask me.
    At the beginning, that was really our big challenge. We 
figured we could get breeders to breed and then sell puppies at 
8 to 12 weeks. We knew we had people who wanted dogs at a year 
to 18 months. And so our big challenge was, what happens in 
that time period?
    And the Penn Vet Working Dog Center has really been an 
experiment in what we can do. We found that it is so valuable 
to be able to have those dogs. And our dogs come every day to 
school and are trained and then go home and live with foster 
families. And so those dogs are able to be tweaked and adjusted 
and remedial efforts and everything, which is why we think 
they're so successful. But it's also very labor intensive.
    And one of our goals is to look at what the cost-
effectiveness of, maybe, a prison program, but also maybe a 
partial prison program. Because we know the dogs in the prison 
programs don't get the environmental exposure that sometimes we 
need. So some sort of melding of that. There may be kennel 
programs. There may be a lot of things that we have to research 
and ask the question: What's the most effective? What is the 
most cost-effective and also trainingwise? But, I think, what 
we've missed out in so many of these programs is this early 
childhood development and our ability to really influence the 
dogs and set them up for success.
    Mrs. Watson Coleman. Thank you. Thank you.
    My time is up. I yield back.
    Mr. Palmer. I thank the gentlewoman.
    The chair now recognizes my colleague from Alabama, 
Congressman Rogers, for 5 minutes.
    Mr. Rogers. Thank you, Chairman Palmer. And I want to thank 
you and Chairman Katko for calling this very important hearing. 
This is a subject that needs a lot more discussion and 
prominence with the public because I don't think the public 
understands how scarce this resource is and how critically 
important it is to our national security.
    Lieutenant Smith, I didn't hear you say where you procured 
the 14 canines from. Where are they sourced from?
    Mr. Smith. Typically, we have found several third-party 
vendors throughout the State of Florida. We're currently using 
one in Miami, Florida, right now. We have a Local one in New 
Smyrna Beach. And then we've also used one in the panhandle 
near Tallahassee. But, again, all those vendors take their 
trips overseas, pick out their dogs, and bring them back.
    Mr. Rogers. So they're procuring them from overseas as 
well?
    Mr. Smith. Correct.
    Mr. Rogers. Dr. Otto, one of the things that I have been 
advocating for in recent years is that we put more emphasis on 
domestic breeding with the understanding that this would be a 
subsidized venture by the Federal Government with us getting 
first choice of the product. Why do you think that hasn't 
happened as we have pushed for this? Why do you think that the 
universities and the marketplace have not formed a consortium 
to develop this breeding capacity domestically?
    Dr. Otto. I think it's a great question. And I think that 
timing is a lot, and the fact that a lot of the agencies 
weren't talking to each other, and breeders weren't talking. 
And this whole meeting that the AKC hosted was such a great 
revelation of getting all of the people in the same room so 
that we could have this discussion and come to the realization 
that we all need to work together. And I think having a center 
of excellence to kind of coordinate it--because, to be 
successful, we're going to need a breeding co-op. And a 
breeding co-op means that we don't have a centralized breeding 
source, but we have a mechanism to bring all these individuals 
in together to study it, collect data, look at the different 
programs of how to raise the dogs from that 8 weeks to the 12 
months. And then, I call it Working Dog Finder, which is like 
Puppy Finder, where you actually have the organizations come in 
and say, ``I need a dog that does this, this, and this,'' and 
the consortium, the co-op, has dogs that then they can match up 
so that we can actually funnel things.
    I think one of our challenges has been that we've been very 
narrow. It's like: I only want to work with explosive detection 
dogs. Well, we know that not every dog is going to be 
successful in that realm. So we want to make sure that we bring 
in everybody.
    Mr. Rogers. Well, the way I envision this--and I see the 
Vapor Wake explosive detection canines as the top tier, the 
Cadillac of explosive detection. And then you've got the 
passenger screening canines underneath that. But, in my 
experience--and I've been doing this a long time, dealing with 
this topic--that, even if a dog is not capable of those two 
careers, they can always drop down and be used on the border 
for drug detection and gun detection because the Customs and 
Border Protection are getting dogs from the local pound for 
that. So I don't see that there would be any waste in a 
breeding program that we constructed. But what I hear 
repeatedly is, well, the reason why it hasn't happened by the 
private sector is the business case doesn't close. Well, I just 
think that's because we haven't developed the state-of-the-art 
dog that we can produce in this country, which brings me to my 
question.
    My understanding is that there really isn't a collection of 
information about these different breeders, the lines that 
they've developed, to--that's being centralized for researchers 
like you to study. Is that accurate? Or am I wrong?
    Dr. Otto. That is accurate. We are certainly working. And, 
again, we're looking at even the genetics. But until we can 
have that quantitative phenotype--so, in other words, we can 
tell specifically numerically what those traits are that we're 
looking for--it's really hard to look at the genetics and say 
we should breed this dog to this dog. The International Working 
Dog Breeding Association has come up with an incredible program 
where people can put in that information and learn what they 
call estimated breeding value so we can make good selection 
based on those criteria. And that's what's going to move things 
forward.
    We know the TSA breeding program made incredible genetic 
advances over the 10 years that they were there, and that is 
the kind of thing that we need to be doing. But we need to be 
collecting the science. We need to have those markers, and we 
need to know what the genetics is.
    Mr. Rogers. Mr. Chairman, my time has expired.
    If you don't mind, I'd like to ask unanimous consent that I 
submit my remaining questions to be provided to the witnesses 
for them to answer for the record.
    Mr. Palmer. We are going to have a second round----
    Mr. Rogers. Good.
    Mr. Palmer. --if you would like to ask those questions, you 
may do so, or we'll put them in the record.
    Mr. Rogers. I'll wait for the second round. I can ask 
questions longer than they'll put up with me.
    Mr. Palmer. With that, I will now recognize myself for 5 
minutes. And there will be a second round of questions.
    Ms. Goffe, one of the issues that prevents increased 
utilization of domestically bred dogs is the age at which 
agencies are able to accept them. For many breeders, that 
doesn't make sense, to hold onto a dog past 8 or 12 weeks when 
they are typically sent to their new homes for training, 
particularly for--training for detection or passenger 
screening. Can you discuss what, if any, steps the American 
Kennel Club is taking to try to bridge that gap?
    Ms. Goffe. Several. A couple of the things that we have 
looked at, in addition to the aforementioned prison programs, 
working with some of the universities who are doing the ongoing 
training, doing a great job of that, is really working with our 
breeders to convince them to sign on to a program where the 
dogs that they are producing will be developed for this 
purpose. And so they are taking a longer term look at the 
puppy, particularly if the people who have, you know, a lot of 
family members who can help out with the socialization. You 
know, dog breeding is very much, in many parts of the country, 
still very much a family operation, so really holding onto them 
longer. And then what we envision is making sure that they have 
all of the knowledge, the science, the research they need to 
make those dogs as strong as possible.
    And part of that is by letting the government know, 
developing some kind of relationship, where, because you are 
able to provide a more stable--a dog with a lot more training 
time behind it, you're going to have a greater success, we 
hope, with getting into the government program. So it's not 
that disincentive of I should sell the dog at 12 weeks rather 
than waiting for 12 months. That's one of the options.
    Also, our kennel clubs may provide additional options.
    And then, finally, we do have a lot of dedicated backers--
ex-breeders, who have aged out of breeding, but they are still 
very, very engaged with the dogs. These also present wonderful 
people to hold on to a puppy, to be, you know, puppy foster 
parents, if you will, for a year or so and really train them, 
socialize them, and to give back.
    Mr. Palmer. You said something earlier about a business 
model and that we don't have a business model for that. Without 
going into a long, long answer, I would be interested to know 
what that business model would look like. And it seems, in 
listening to your answer then, that that's one of the gaps that 
we have in getting the dogs that need to be trained for the 
kind of work that Lieutenant Smith does, that TSA needs done, 
or our armed services. Do you--is there a business model that 
you guys have come up with?
    Ms. Goffe. We think a lot of it is about financial 
incentive, as well, frankly, the ability to do this, and to 
make a living at doing this. And one of the concerns that we've 
had where the dogs have been procured overseas is, while the 
government says that those dogs are cheaper, one of the things 
that has not been fully investigated is, are they, in fact, 
cheaper, and is the government able or paying what we should be 
paying for these highly valuable resources? It may be a case 
that the going rate for these dogs should be higher, 
particularly when you consider and you compare what we would be 
paying at 12 weeks for a puppy versus 12 months and compare 
what we're paying to sustain overseas buying trips and all the 
additional costs that go along with foreign purchase versus 
domestic purchase. So we are actually very supportive of some 
language of Mr. Rogers and the Defense Authorization Act that 
investigates the differences in the costs and tries to set a 
more realistic cost for purchasing puppies at a later date 
where they're ready to go.
    Mr. Palmer. I'm glad we're going to do a second round 
because I want to continue to ask you, along this line, and 
I've got questions for Lieutenant Smith and Dr. Otto. And 
unlike some chairmen, I won't take 10 minutes for 5. So I'm not 
calling any names.
    But if we had a different model where we kept these dogs 
longer so that they're an appropriate age for this type 
training, and they didn't measure up, would those animals still 
be--and, Dr. Otto, you can answer this--would those animals 
still be appropriate for a family to adopt or even be sold? 
Because most of these dogs are purebred, aren't they? That you 
could still have a market for that so that you create a 
business model where, if the dog doesn't pan out for service 
with Lieutenant Smith, the dog would still be a viable product 
that someone else might be interested in?
    Dr. Otto. I can tell you that the list of people who want 
dogs that don't make it in our program is really long. And 
because we've had very few dogs that don't make it, we can't 
even accommodate that. So there are definitely people who are 
interested. But, also, using the model where we can have the 
dogs if they're not successful in this program, could they be 
successful in another? So, again, defining that phenotype for 
each and every one of these programs that's using dogs, we can 
have dogs successful in a whole array of different careers, and 
then those that aren't successful are going to be very 
attractive to people who maybe want to compete in sport or just 
really want a pet. Although, a lot of these dogs are pretty 
high energy. So they're not your average pet. But they still 
are very appealing.
    Mr. Palmer. My point is not necessarily as a pet, but are 
they marketable? Because what you have here is an overhead 
cost, and a business is trying to reduce its overhead. So, if 
it's got a primary product that has a high spoilage rate, for 
instance, the overhead is higher. But if there's a market for 
these dogs--and as Congressman Rogers pointed out--and we make 
this, from a price point worthwhile, it seems to me that there 
is a business model that could be developed that would make 
this work.
    We will now begin the second round of questions.
    I will recognize the gentleman from New York, Mr. Katko, 
for 5 minutes.
    Mr. Katko. Thank you, Mr. Chairman, and I stand ready and 
willing to take any dogs that might be available because we 
have plenty of room in our yard.
    Anyways, Lieutenant Smith, I want to talk to you a little 
bit more about some kind of boots-on-the-ground examples of the 
procurement process and the cost-sharing issues, if any. Are 
you cost sharing? Are you collaborating with other agencies? 
So, with that in mind, I want to ask you, do you coordinate 
with any State, local, or Federal agencies in the procurement 
process? Or do you simply do it on your own? And, if you do, 
how is it working?
    Mr. Smith. Sir, we do do it on our own. We call around to 
those vendors that we've used successfully in the past. And, 
again, sometimes we run into a shortage problem where they're 
just out of dogs, and they haven't taken their trip overseas, 
and their stock, they just don't have it. We'll have to look 
around a little more.
    We do collaborate after the purchase process on training 
because it's not fiscally wise to run a 4- or 5-month training 
scenario with one dog and one, you know, cop. So we do call 
around to--whether it's municipal or county agencies--to see 
who has new handlers. Basically, that's the problem, is 
handlers come and go. Every once in a while, you'll lose a dog 
from age or medical purposes, and then we'll put on joint 
training classes to certify that team.
    Mr. Katko. All right. So you have heard from Dr. Otto and 
Ms. Goffe today at length about the procurement processes and 
some of their suggestions. And it does sound like that is, 
again, where the problem is, you know, even for you, at the 
local level, right? Sometimes you can't find a dog. So you've 
heard some of their suggestions. And I'd ask you to be frank 
and tell me, what do you think?
    Mr. Smith. I think the business model is going to be a 
problem. I believe that is the main--I think that's the main 
problem with people who get into the business model is--I 
referred to them as used car salesmen earlier. They're not 
truly in it for the dog, and they're not truly in it for our 
end purposes. They're in it to make money. And in order to do 
that, they have to push a large amount of animals through their 
inventory quickly. And I think that goes to what, maybe, you 
were talking about, is, how cheap are these dogs? And why are 
they selling them so cheap in Europe? Because, realistically, 
if they've held on to them for a year and they've fed them and 
they've done the vet tests and everything like that, those 
prices probably should be higher. But, for whatever reason, 
they're not. And that's why we're getting them from over there, 
because here, in the States, when you hold a puppy from 8 weeks 
to 12 months, they have incurred that bill as the breeder. And 
they have to recoup that from us.
    So, you know, whether or not it's the puppy mill 
terminology and they just don't--they have a disregard for the 
animal itself, and those that don't make it, who knows what 
happens to those dogs. You know, some of that probably does 
happen in Europe, where it's not going to happen here in the 
States.
    Mr. Katko. So any suggestions on how to address that issue?
    Mr. Smith. Unfortunately, I think that's well above an end-
user person like myself.
    Mr. Katko. You provided some pretty good insight, though, 
and I appreciate it. So----
    Mr. Smith. And thank you for the opportunity. But I really, 
like--I am stuck on how to solve that problem, because as an 
end-user, I wish we could get our hands on dogs easier and in 
that age range of a year and a half to 2 years, because we have 
had problems with getting them at a month old. You know, there 
are age determination problems, sometimes, when you get them 
from Europe. Oh, yeah, he's 16 months old. And come to find 
out, he's not really 16 months old. You know, he's a year old. 
And that's a problem. And we've wound up having to return dogs 
or retire them just because they didn't make it through our 
training.
    And, obviously, the full-service training aspect of it is a 
little more strenuous than the single-purpose aspect of it. And 
they go through a lot more, and that's some of the problems 
that we have.
    Mr. Katko. Okay. Thank you.
    I yield back, Mr. Chairman. Thank you.
    Mr. Palmer. The chair now recognizes the ranking member, 
Mrs. Demings, for at least 5 minutes, maybe longer, since I got 
out of order.
    Mrs. Demings. Thank you, Mr. Chairman. I believe I'll take 
the full 15.
    I, again, want to thank our witnesses because this has just 
been so beneficial for us to hear some of the behind-the-scene 
processes and some of the challenges that we are facing.
    Dr. Otto, I think we'll begin where we left off, and that's 
involving the test standards. The TSA canine teams, of course, 
work in areas such as airports where there are a tremendous 
amount of distractions. And does it make sense to you that the 
TSA would develop test standards that reflect the unique 
conditions that their canines operate in?
    Dr. Otto. Absolutely. I think it's appropriate.
    Mrs. Demings. Mr. Chairman, I would like to enter into the 
record a letter from the TSA.
    Mr. Palmer. Without objection.
    Mrs. Demings. Thank you so much.
    And I'd like to share a quote from them that says: Canines 
displaying a minimum amount of reward, drive, and search 
behavior may be acceptable for a canine slated to work single-
suspect vehicle or occasional VIP motorcades, but it would be 
unsuitable when the expectation is screening passengers at an 
airport checkpoint where the use of canines acceptable to 
screening persons is still relatively new to explosive 
detection canines.
    Dr. Otto, do you agree that more canine teams--or believe 
that more canine teams are needed at the State and local levels 
as their responsibilities continue to grow? We've heard 
Lieutenant Smith share a little bit about the additional use of 
canines.
    Dr. Otto. I think the demands are, you know, skyrocketing, 
and it certainly makes me feel more comfortable when I get back 
on Amtrak to know that there are canines at Union Station.
    Mrs. Demings. Are you aware of domestic vendors that are 
actually working on training canines to meet TSA standards? Are 
you aware of any vendors that are actually working with the TSA 
to develop standards for their canine teams?
    Dr. Otto. As far as developing standards, I am not aware. I 
do know that there are several vendors that are working with 
TSA, particularly on the Person-Borne Explosives Detection Dog.
    Mrs. Demings. Thank you.
    Can anyone share, what is the average cost of acquiring a 
canine and training it, whether single-purpose use or 
multipurpose? What's the average cost?
    Mr. Smith. I can tell you that we pay anywhere from $9,000 
to $13,000 per dog, and that is before the man-hours are 
adjusted into, in the State of Florida, 480 hours for a full-
service dog.
    Mrs. Demings. --$9,000 to $13,000?
    Mr. Smith. Correct. And that's based on how much training 
it has in it already. Vendors sell some dogs that are 
considered to be titled, and they have more training once we 
get them.
    Mrs. Demings. Ms. Goffe, any?
    Ms. Goffe. I would say that we've heard a wide range of 
numbers based also on the training. But that's along the lines 
that we've heard.
    Mrs. Demings. Okay. Thank you.
    Mr. Chairman, I yield back.
    Mr. Palmer. The chair recognizes the gentleman from 
Alabama, Mr. Rogers, for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Dr. Otto, you want to talk a little bit about people 
working together. You made reference to, a little while ago, 
about the collaboration, the sense of it, essentially. Ten 
years ago, roughly--I'm also a member of the Armed Services 
Committee, in addition to Homeland Security--I wanted to try to 
get the canine community, breeding community, and training 
community, to agree on working together to develop a standard 
of physical capability but also training that the government 
could rely on for purchasing, whether it's for the military or 
for Homeland Security. It was impossible to get these folks to 
work together and agree. Everybody felt their way of training 
was superior to everybody else. Do you sense that has 
dissipated in any way or changed? Because you talk about this 
center of excellence and this sense of cooperation. I worry 
that we're going to see that devolve again.
    Dr. Otto. I think it's a risk. But I do think there is a 
change. I think that all of the organizations are realizing 
that they no longer can get the dogs that they want. And so 
they're all feeling this pressure, and they realize they need 
to cooperate. And the fact that we had all of the 
representatives at the AKC meeting and we all agreed on kind of 
the general direction was really exciting. And I think you laid 
a lot of the groundwork by setting the seeds for that. And I 
think the timing and the cost and the struggle that people are 
having is really forcing them to have to work together.
    Mr. Rogers. I want to get to, I think, the point Mrs. 
Demings was getting at, on the price that folks like you are 
having to pay. And the government is paying higher than that in 
some situations for the top-notch canines. And I have Auburn in 
my district. And Auburn's success rate on dogs that can make it 
as Vapor Wake, which, again, is standard, is about 60 to 70 
percent of the dogs that they produce in their breeding 
program.
    It's my belief if through organization and research that we 
can get that production and success rate to 80, 85 percent, 
then that business case is going to close so that they can sell 
that 80 or 85 percent at the $15,000 or $20,000 level. And then 
the passenger screening dogs would come in at 10,000 or 12,000. 
And then the dogs that can't do that, they could maybe be great 
for single-detection searches or cadaver searches or drug dogs 
or whatever, could be then sold for whatever the market would 
bear to get the waste out so the business model closes. That's 
what I'm after in trying to get a breeding program stood up and 
supported by the Federal Government.
    Ms. Goffe, DHS has struggled with procurement and writing 
capability requirements for years. What do you think the DHS 
can do to make more clear what their expectations are when it 
comes to American canine companies and the product that they're 
wanting to have processed through their screening programs?
    Ms. Goffe. Well, first, I'd like to say that it's a tough 
challenge. There's a lot of subjectivity when it comes to 
training.
    Having said that, one of the things that we've had 
discussions with DHS and vendors is that we need to have 
specific sort of standards for the baseline of these types of 
dogs. So that's to say that, when you bring one of these dogs 
in--we're talking about untrained dogs or what they've defined 
as untrained dogs. Some of those dogs are going to go on to do 
additional training and to go to, essentially, higher levels 
like the Vapor Wake level. But if we can develop a single 
standard of what a dog who's going to be a detection dog should 
be able to achieve, whether, you know, again, it's 
environmental, mental, physical, all the various types of 
health, and then the standards for training spell out----
    Mr. Rogers. So are those requirements not written with 
enough specificity now? Is that your argument?
    Ms. Goffe. I'm sorry?
    Mr. Rogers. Are those requirements not written with enough 
specificity?
    Ms. Goffe. The requirements are very vague right now.
    Mr. Rogers. What about after action, when somebody goes 
through the training facility and their dog is not successful, 
or the screening facility, are you given clear feedback? Are 
you hearing that they're giving clear feedback about what the 
shortcomings were?
    Ms. Goffe. We have, unfortunately, heard they have not been 
getting clear feedback. We have heard a lot of frustration from 
people who have spent a lot of time providing what they thought 
the government wanted based on a scope of work and then have 
heard that, well, this scope of work can range from anything 
along a set of guidelines to, well, it is subjective. So, if we 
can nail down a clear, concise, scope of work, what do these 
dogs need to do so that they can be better prepared, we think 
we'll have a better response from breeders and vendors.
    Mr. Rogers. Great. My time has expired.
    Mr. Chairman, thank you. Again, I'd like to offer my final 
questions for Dr. Otto for the record. And, with that, I yield 
the balance of my time.
    Mr. Palmer. Without objection, so ordered.
    Mr. Palmer. The chair now recognizes the gentleman 
Louisiana, Mr. Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Ladies, sir, thank you for being here today.
    Lieutenant Smith, I was a police officer for 14 years, SWAT 
operator for 12, been on hundreds of missions with canine guys. 
And you're a special breed, and no pun intended. So thank you 
for your service.
    And I'd like to ask you: You know, this is a Nation that's 
$20 trillion in debt. And, of course, we have to find the most 
efficient and wise expenditure of the people's Treasury. That's 
one of the reasons that some of us are pushing heavily for the 
increased use of canine teams because some of the alternatives 
of technology are very, very expensive. And we talk about the 
expense of a given dog right now being up to 25 grand for a 
canine; we'll cover that in a second.
    But let me just ask, Lieutenant Smith, in your career, do 
you know of any known technology that can duplicate the 
performance and versatility of a good canine team?
    Mr. Smith. Not even close.
    Mr. Higgins. Thank you very much.
    So let's talk about the expense of the dogs. When you have 
a broad-spectrum detection certification level for a dog, 
explosives, narcotics, cadaver detection, human sport tracking, 
each one of these certification levels, would that not add to 
the value of a dog if that dog is already certified in that 
detection technique?
    Mr. Smith. Yes, sir, it would.
    Mr. Higgins. Thank you. So you can either buy the dog 
that's already certified with these various broad-spectrum 
skills, or, if you intended for the dog to have that skill, 
you'd have to send that dog and his trainer to that school, 
would you not?
    Mr. Smith. You would.
    Mr. Higgins. Which would increase the expense of the dog, 
if you make that comparison. I think that's very reasonable, 
don't you?
    Mr. Smith. Yes.
    Mr. Higgins. Okay. So the other expense of a canine dog, is 
it not the bloodline of the dog? Isn't that considered----
    Mr. Smith. Is that for me?
    Mr. Higgins. Isn't there sort of a culture amongst canine 
cops--and I wish my brother was still here--to have a dog with 
a deep bloodline?
    Mr. Smith. Yes.
    Mr. Higgins. Yes.
    Ms. Goffe, don't you agree? Let me not put words in your 
mouth, ma'am. I would suggest that dogs bred and raised here in 
the United States, although the bloodline might not run as deep 
and appear as pure and pedigreed, they'd still be quite capable 
of performing as a canine dog. Would you agree with that?
    Ms. Goffe. Absolutely.
    Mr. Higgins. Thank you.
    So if we can shift this culture of, LT, from amongst our 
brothers and sisters that are canine operators, from having a 
dog with a deep bloodline to an AKC registered and trained dog, 
wouldn't you believe that would be an efficient expenditure of 
the people's Treasury and a very effective choice?
    Mr. Smith. Yes, sir, it would.
    Mr. Higgins. Okay. Let's jump to officer retention and how 
that impacts. I will question you specifically, Lieutenant, is 
when you--what impact does canine reassignment to a new 
handler--if you lose an officer to another department or he 
transfers to another section within your own department and you 
have to reassign that canine, what generally happens with that 
dog?
    Mr. Smith. So, if you're keeping the same dog and the dog 
is fully trained, they still have to go through the same amount 
of training in Florida that I talked about, the 480 hours. They 
still have to do that 480. It's a little more turnkey for the 
cop because the dog already knows what he's doing, and it's 
just a matter of time to get the officer up. But they still 
have to put those hours in. So that team is off the road and 
away from those assignments for that 480 hours.
    Mr. Higgins. So they can't perform because they're being 
re-paired?
    Mr. Smith. Correct.
    Mr. Higgins. Right. And has it been your experience, sir, 
that sometimes the dogs that cost you less money when you first 
got them end up to be better performers than the dogs that cost 
more money?
    Mr. Smith. In some cases, yes.
    Mr. Higgins. Yeah.
    Mr. Chairman, I would suggest that this has been--thank you 
for holding this hearing. I think this is exactly the course of 
action we need to take on this subcommittee. And I, for one, am 
a loud and vocal advocate for the increased use of canines and 
their teams.
    And I thank the ladies and the gentleman for appearing 
before us today.
    I yield back.
    Mr. Palmer. I thank the gentleman.
    I recognize myself now for a few minutes of questions, as 
undefined as that might be.
    Lieutenant Smith, one of the reasons we're holding this 
hearing is because of conversations that I had with Ranking 
Member Demings and Chairman Katko. And I want to recognize 
them. As law enforcement professionals, they have been 
invaluable in educating me about some of these issues.
    But the primary concern that I had that I brought up to 
both of them, and they shared this concern, is the lack of 
perimeter security at airports. I think all three of us fly 
every week. And I can't speak for them, but I'm going in and 
out of airports where it is not rare to see no security at the 
dropoff point and then to get inside the airport, in the 
ticketing area, and not see any security.
    Does that concern you?
    Mr. Smith. Yes, absolutely, especially from the history of 
certain terrorist events.
    Mr. Palmer. I would expect that answer.
    In talking with Ranking Member Demings about the 
jurisdictional issues between local law enforcement and TSA and 
trying to decide how this needs to be layered, whether it 
should be local law enforcement deploying the canines versus 
TSA, I think that's yet to be resolved. But I do think the 
issue is, is that we need more quality dogs. We need a much 
more visible presence. You made a statement very early on that 
just the appearance of a dog or a canine unit is a deterrent. 
And I mentioned airports. I think the same thing is true of 
surface transportation hubs and major events. The primary focus 
of this is figuring out, how do we get more dogs approved, and 
particularly domestic dogs? But how do we get those deployed? 
What resources do we need to provide to make that happen so 
that we avoid another catastrophic event like we've just 
witnessed in Las Vegas?
    Mr. Smith. Well, I think, for the end user, no matter how 
successful you are with the domestic breeding program, it's 
going to come down to a budgetary concern for the local agency. 
You know, whoever is the authority over the international 
airport or the domestic airport or whatever, it's going to come 
down to actually being able to pay for those dogs no matter 
what the price point is. So, whether there's any assistance, 
you know, from the Federal Government or anything like that, 
that's going to be the biggest concern because people who raise 
their hand and want to work with a dog, you don't have a 
shortage of that. You'll have the officers that want to come 
out and do that job. It's a matter of actually being able to 
fund it at our level.
    Mr. Palmer. Well, one of the things that we were talking 
about earlier, and Congressman Rogers brought this up, and I 
think I brought it up in my questions earlier, is reducing the 
number of dogs that are rejected. And I think one of the ways 
you do that, Dr. Otto, is that you have very clear evaluation 
standards. And can you tell us how, for instance, TSA sets and 
evaluates standards for passenger screening and explosive 
detection?
    Dr. Otto. I'm afraid I can't tell you how they do that 
because I haven't worked directly with them. We use the TSA 
screening process for our puppies to see if they're able to 
enter in. But I have actually not worked with the TSA at the 
level of that training and evaluation.
    Mr. Palmer. Well, wouldn't it make sense that if local law 
enforcement, for instance, they have jurisdiction over local 
airports, if they're within their city limits or their area of 
jurisdiction, so there's going to be overlap, wouldn't it make 
sense that there be set standards across the board so that when 
you have local law enforcement or other law enforcement 
interacting with Federal agencies like TSA, you've got the dogs 
all trained to the same standard? And I realize the handlers 
will--you know, that changes some things somewhat. But wouldn't 
that make sense, that everybody is training to the same 
standards?
    Dr. Otto. Yes, I believe. And I believe that DHS has been 
doing some testing. And I think one of the things about the 
standards, too, is, who is evaluating the dogs? It really does 
need to be an outside group evaluating the dogs as opposed to 
an internal assessment, and I think that might be where some of 
our challenge also comes. If we're doing--if we're sort of 
evaluating ourselves, we're a little softer than maybe we 
should be.
    Mr. Palmer. Is there enough capacity to supply our domestic 
needs, whether it's TSA or local law enforcement? Is there 
enough domestic capacity to provide those dogs?
    Dr. Otto. Currently, I don't think that there is. I think 
that that's why we need to move on to a dedicated breeding 
program. And I think we need to realize that there's a 2-year 
lag from the time we start breeding. So, if we want them 
tomorrow, we needed to be planning this 2 years ago.
    Mr. Palmer. And that goes back to the business model that I 
think we're going to have to develop and the resources that 
Congressman Rogers mentioned.
    Unless there are other members with questions, I thank our 
witnesses for appearing before us today. I would like to just 
make this point: Again, this has been a very collaborative 
effort by both subcommittees. And even though Chairman Katko 
and Ranking Member Demings and I began talking about these 
issues months ago, the timeliness of this joint hearing is not 
lost on the members of these two subcommittees. The horror that 
we saw taking place in Las Vegas Sunday night loomed large over 
us as another reminder of the dangers that we all face and the 
responsibility that we share to ensure the safety and security 
of all Americans. And to echo what has already been said, we 
pray for the grieving families that have lost friends and loved 
ones, and pray for the full recovery of those who are injured.
    The hearing record will remain open for 2 weeks for any 
member to submit a written opening statement or questions for 
the record.
    If there's no further business, without objection, the 
subcommittees stand adjourned.
    [Whereupon, at 3:55 p.m., the subcommittees were 
adjourned.]


                               APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       [all]
                       
 
</pre></body></html>
